CREED & GOWDY
AN APPELLATE LAW FIRM

865 May Street, Jacksonville, Florida 32204
Rebecca Bowen Creed*
Bryan S. Gowdy*
Meredith A. Ross
Dimitri A. Peteves
D. Gray Thomas, of counsel
Thomas A. Burns*, of counsel

(904) 350 0075 Telephone
(904) 503 0441 Facsimile
www.appellate-firm.com

* Board Certified as Appellate Specialist by The Florida Bar

July 23, 2021
Via FedEx and E-Filing Portal
Denise McNerney
Merits Cases Clerk
United States Supreme Court
1 First Street, NE
Washington, D.C. 20543
(mcnerney@supremecourt.gov)
Re:

Gianinna Gallardo v. Simone Marstiller, In Her Official Capacity as Secretary of the
Florida Agency for Health Care Administration, Case No. 20-1263

Dear Ms. McNerney:
I represent the petitioner in the above-captioned matter. Petitioner’s merits brief is currently
due on August 16, 2021. On behalf of both parties, I am writing to request an extension of time to
file the briefing and joint appendix in this case, as follows:
Petitioner’s brief and joint appendix: September 15, 2021
Respondents’ brief: November 15, 2021
Reply brief: December 15, 2021
Both parties have agreed to this proposed schedule, which would allow the Court to hold
oral argument during the January 2022 session. Please do not hesitate to contact me if you have
any questions or concerns.
Respectfully Submitted,
/s/Bryan S. Gowdy
Bryan S. Gowdy
Counsel of Record
cc: James H. Percival
Counsel of Record

